         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       EPA’s Office of Research and
       Development Performance
       Measures Need Improvement

       Report No. 10-P-0176

       August 4, 2010
Report Contributors:                            John Bishop
                                                Chris Dunlap
                                                Dan Howard
                                                Tiffine Johnson-Davis
                                                Rich Jones
                                                Andrew Lavenburg
                                                Rick Beusse




Abbreviations

ARL          Army Research Laboratory
BOSC         Board of Scientific Counselors
DDA          Decision Document Analysis
EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
GPRA         Government Performance and Results Act of 1993
LRP          Land Research Program
LTG          Long-Term Goal
MYP          Multi-Year Plan
NAS          National Academy of Sciences
NPD          National Program Director
NRC          National Research Council of the National Academies
OIG          Office of Inspector General
OMB          Office of Management and Budget
ORD          Office of Research and Development
ORMA         Office of Resource Management and Accountability
OSTP         Office of Science and Technology Policy
PART         Program Assessment Rating Tool
PBM SIG      Performance-Based Management Special Interest Group
R&D          Research and Development
SoSP         Science of Science Policy


Cover photo: EPA scientist performing a chemical assay. (EPA photo)
                                                                                                         10-P-0176
                       U.S. Environmental Protection Agency                                          August 4, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review           EPA’s Office of Research and Development 

We conducted this evaluation     Performance Measures Need Improvement

to determine whether one of
the U.S. Environmental            What We Found
Protection Agency’s (EPA’s)      The difficulty of measuring research performance has been recognized by the
research programs – the Land     National Research Council of the National Academies and other authoritative
Research Program (LRP) –         sources. No single measure can adequately capture all elements of research
has appropriate performance      performance. Therefore, EPA’s Land Research Program (LRP) has employed a
measures for assessing the       variety of methods to assess its research performance. We found that
effectiveness of its research    improvements were needed to better enable EPA’s Office of Research and
products.                        Development (ORD) to assess the effectiveness of LRP research products. LRP
Background                       did not have measures that assessed progress towards short-term outcomes
                                 identified in the LRP Multi-Year Plan (MYP). Additionally, LRP’s citation
EPA relies on sound science      analysis PART measures were not meaningful to ORD program managers and
to safeguard human health and    were not linked to LRP’s goals and objectives. As implemented, ORD’s survey of
the environment. LRP             LRP clients did not provide a meaningful measure of customer feedback because
provides the science and         ORD’s client survey was not reliable. Further, LRP lacks some key measures that
technology to help its clients   would aid BOSC in conducting its LRP program reviews, and ORD has not clearly
preserve the Nation’s land,      defined elements of its long-term goal (LTG) rating guidance for BOSC reviews.
restore contaminated
properties, and protect public   Several underlying issues impacted ORD’s development of LRP performance
health from exposure to          measures. These include the inherently difficult nature of establishing outcome-
environmental contaminants.      oriented research measures and ORD’s decision not to tailor its measures to each
LRP measures research            research program. As a result, ORD has invested resources in performance
performance by using (1)         measures and tools that have not effectively measured key aspects of LRP
Office of Management and         performance. The measures have not provided LRP with the data to assess
Budget (OMB) Program             program progress towards its goals, identify areas for program improvement, and
Assessment Rating Tool           track the short-term outcomes of its research.
(PART) measures, (2) client
                                  What We Recommend
feedback, and (3) peer review
by the Board of Scientific       We made a number of recommendations to ORD to improve LRP’s research
Counselors (BOSC).               measures, including that ORD (1) develop measures linked to the short-term
                                 outcomes in LRP’s MYP, (2) augment LRP’s citation analysis with measures
                                 meaningful to ORD program managers and linked to LRP’s goals and objectives,
For further information,         (3) develop an implementation plan for the LRP client survey to ensure that LRP
contact our Office of
Congressional, Public Affairs    has a reliable method for assessing relevance (or develop a reliable alternative
and Management at                customer feedback mechanism), (4) provide appropriate performance
(202) 566-2391.                  measurement data to BOSC prior to full program reviews, and (5) revise its LTG
                                 rating guidance to BOSC for program reviews. ORD generally agreed with our
To view the full report,
click on the following link:     recommendations and is taking action to implement four recommendations.
www.epa.gov/oig/reports/2010/    However, for three recommendations closely linked to the OMB PART, ORD is
20100804-10-P-0176.pdf           awaiting additional guidance from OMB before proposing specific corrective
                                 actions. We consider these three recommendations open and unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL



                                          August 4, 2010

MEMORANDUM

SUBJECT:	              EPA’s Office of Research and Development Performance Measures
                       Need Improvement
                       Report No. 10-P-0176


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Paul Anastas
                       Assistant Administrator for Research and Development


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $1,149,970.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public Website,
along with our comments on your response. Your response should be provided in an Adobe
PDF file that complies with the accessibility requirements of section 508 of the Rehabilitation
Act of 1973, as amended. If your response contains data that you do not want to be released to
the public, you should identify the data for redaction. For recommendations 2-3 and 2-5, the
Office of Research and Development (ORD) submitted a corrective action plan that
sufficiently addressed these recommendations. For recommendations 2-1 and 2-4, ORD
provided subsequent written clarification on July 19, 2010 that, together with its corrective
action plan, sufficiently addressed these recommendations. Accordingly, we are “closing”
these four recommendations in our tracking system upon issuance of this report. No further
response is required for these four recommendations. These recommendations will be tracked
to completion in the Agency’s tracking system. For the other recommendations, the Agency’s
90-day response should include a corrective action plan for agreed-upon actions, including
milestone dates. You may also propose alternative actions you believe will meet the intent of
our recommendations. We have no objections to the further release of this report to the public.
This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General for Program Evaluation, at (202) 566-0832 or najjum.wade@epa.gov;
or Rick Beusse, Director for Program Evaluation – Air & Research Issues, at (919) 541-5747 or
beusse.rick@epa.gov.
EPA’s Office of Research and Development                                                                                  10-P-0176
Performance Measures Need Improvement



                                  Table of Contents 


Chapters 

   1    Introduction ........................................................................................................      1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Noteworthy Achievements...........................................................................                 6             

                Scope and Methodology .............................................................................                6             


   2    ORD Performance Measures Need Improvement .........................................                                        7         


                Some LRP PART Measures Not Appropriate to Assess
                     Program Performance .....................................................................                     7

                ORD’s Survey of LRP Clients Did Not Provide a Meaningful
                     Measure of Customer Feedback .......................................................                         14 

                LRP Lacks Some Key Measures to Aid BOSC Program Evaluations .........                                             15

                ORD Has Not Clearly Defined Elements of Its Long-Term Goal
                     (LTG) Rating Guidance for BOSC Program Reviews........................                                       18 

                Conclusions .................................................................................................     21             

                Recommendations ......................................................................................            22             

                Agency Comments and OIG Evaluation......................................................                          22 


   Status of Recommendations and Potential Monetary Benefits..............................                                        25     




Appendices 

   A    Details on Scope and Methodology..................................................................                        26     


   B    Criteria for Evaluating Performance Measures ...............................................                              29     


   C    Linking Summary Assessment Charge Questions to LTG 

        Qualitative Ratings Definitions .........................................................................                 33     


   D    Agency Response to Draft Report....................................................................                       34     


   E    OIG Evaluation of Agency Response ..............................................................                          39 


   F    Distribution .........................................................................................................    41     

                                                                                                           10-P-0176





                                               Chapter 1

                                               Introduction
Purpose
                  The U.S. Environmental Protection Agency (EPA) relies on sound science to
                  safeguard human health and the environment. As the scientific research arm of
                  the Agency, EPA’s Office of Research and Development (ORD) conducts
                  research on ways to prevent pollution, protect human health, and reduce risk.
                  Twelve ORD national research programs provide the science to support EPA's
                  goals in its strategic plan. We conducted this evaluation to determine whether one
                  of ORD’s research programs, the Land Research Program (LRP), has appropriate
                  performance measures for assessing the effectiveness of its research products.

Background

                  ORD’s Land Research Program

                  The LRP provides the science and technology to preserve the Nation’s land,
                  restore contaminated properties, and protect public health from exposure to
                  environmental contaminants. The science and technology developed by the LRP
                  are used by EPA, States, local communities, regulated and responsible parties,
                  and contractors to assess, minimize, and manage the risks of hazardous waste
                  contamination. For example, in 2007 LRP conducted research on dredging
                  residuals1 from dredging operations to help develop a reliable method for
                  estimating the volume and contaminant concentration of such dredging residuals,
                  a high research priority for EPA’s Superfund Program. Through its research, the
                  LRP supports EPA’s Office of Solid Waste and Emergency Response. The LRP
                  Multi-Year Plan (MYP) identified two long-term goals (LTG):

                       •	 LTG 1: “Clients request and apply ORD research products and services
                          needed for mitigation, management, and long-term stewardship of
                          contaminated sites.”
                       •	 LTG 2: “Clients request and apply ORD research products and services
                          needed to manage material streams, address emerging material streams,
                          and conserve resources.”




1
  Post-dredging residuals are materials not captured by the dredge, sediments adjacent to the dredge cut that fall into
the dredge footprint, suspended sediments that settle into the footprint, and suspended sediments transported
downstream outside of the dredge footprint.


                                                           1

                                                                                                          10-P-0176


                  The LRP spent $186.2 million on land-related research in the last 5 fiscal years
                  (FYs) (FY 2005 – FY 2009 enacted budget). Its FY 2010 resources include
                  $36.4 million and 155 staff years (Full-Time Equivalents2).

                  Measuring Federal Research Performance
                  The difficulty of measuring research performance has been recognized by the
                  National Research Council of the National Academies (NRC) and other
                  authoritative sources. According to the NRC, agencies and oversight bodies are
                  challenged in evaluating research programs. No single measure can adequately
                  capture all elements of research performance. Therefore, research programs are
                  often evaluated by assessing performance in multiple areas by using a variety of
                  methods.

                  In its 2008 Guide to the Program Assessment Rating Tool (PART),3 the Office of
                  Management and Budget (OMB) identified relevance, performance, and quality
                  criteria that can be used to assess the effectiveness of federal research and
                  development (R&D) programs. Other reliable sources have also identified key
                  attributes similar to those presented in the 2008 OMB Guide to the PART as
                  criteria for measuring federal research performance. For example, a 2008 NRC
                  report4 stated that research program efficiency must be evaluated in the context of
                  relevance, effectiveness, and quality. Similarly, a 1997 report by the U.S. Army
                  Research Laboratory’s (ARL) Special Projects Office5 identified program
                  relevance, productivity, and quality as the most important attributes of its research
                  program’s performance.

                  Research organizations can use several tools to assess key performance attributes
                  of federal research such as relevance, productivity, and quality. For example:

                      •	 The NRC recommended that EPA and other agencies use expert review
                         panels to evaluate the investment efficiency6 of the relevance,
                         performance, and quality of the research. According to the NRC report,
                         EPA is providing its expert review committees with two kinds of data:


2
  A figure calculated from the number of full-time and part-time employees in an organization that represents these

workers as a comparable number of full-time employees. 

3
  OMB’s Program Assessment Rating Tool Guidance No. 2008-01, dated January 29, 2008. 

4
  Evaluating Research Efficiency in the U.S. Environmental Protection Agency, Committee on Evaluating the 

Efficiency of Research and Development Programs at the U.S. Environmental Protection Agency, Committee on

Science, Engineering, and Public Policy, Policy and Global Affairs, Board on Environmental Studies and 

Toxicology, Division on Earth and Life Studies, National Research Council, National Academies, 2008. 

5
  Measuring Performance at the Army Research Laboratory: The Performance Evaluation Construct, Edward A.

Brown, U.S. Army Research Laboratory's Special Projects Office, published in the Journal of Technology Transfer, 

Vol. 22 (2): 21-26 (June 1997). 

6
  The NRC report stated that investment efficiency concerns three questions: (1) are the right investments being

made; (2) is the research being performed at a high level of quality; and (3) are timely and effective adjustments 

made in the multi-year course of the work to reflect new scientific information, new methods, and altered priorities?

Investment efficiency is determined by examining a program in light of its relevance, performance, and quality.



                                                          2

                                                                                                          10-P-0176


                           (1) pilot surveys that evaluate how the research is being used, and
                           (2) bibliometric analyses.7

                      •	 ARL’s 1997 report identified peer review, customer evaluations, and
                         metrics as evaluation tools that can be used to assess program relevance,
                         productivity, and quality. The report stated that if peer review was
                         independent and of “sufficient stature” it would answer the question
                         concerning quality, and that customer evaluation would address the issues
                         of relevance and productivity. ARL considered metrics to be an adjunct to
                         the two other methods.

                  Consistent with the measurement methods and tools recommended by these
                  groups, the LRP assesses the effectiveness of its federal research and development
                  program by using a variety of methods, including:

                      •	 Quantitative measures that were developed for the OMB PART, including
                         bibliometric analysis;

                      •	 EPA/ORD conducted customer feedback mechanisms; and

                      •	 Board of Scientific Counselors (BOSC) external peer reviews.8

                  Details on each of these measures follow.

                  Quantitative Measures Developed For OMB PART Review

                  Performance measures are key factors that OMB considers in its PART program
                  ratings. Because a program’s performance goals represent its definition of
                  success, the quality of the performance goals and actual performance against
                  those goals are the primary determinants of an overall PART rating.9 The LRP
                  has four output measures and one efficiency measure.

                  PART Output Measures:
                      1. “Percentage of Land research publications rated as highly cited
                      publications.”
                      2. 	“Percentage of Land publications in "high impact" journals.”10

7
  According to ORD guidance, bibliometrics is the study or measure of published information. The phrase 

“bibliometric analysis” is an umbrella phrase which includes various types of analyses. Some of these analyses 

types will be defined and discussed later in this report. Bibliometric analyses are used to explore the impact of a 

particular paper, set of papers in a field, or set of researchers.

8
  BOSC provides qualitative assessments of charge questions relating to the relevance, quality, performance, and

scientific leadership of the program.

9
  See footnote 3. 

10
   According to PART, high impact journals are an indication of quality and influence. This measure evaluates the 

percentage of LRP publications that are accepted in prestigious journals and their subsequent impact on the field. 

The criteria and “impact factor” rankings for this metric are provided by Thomson's Journal Citation Reports.



                                                          3

                                                                           10-P-0176



   3. “Percentage of planned outputs delivered in support of the mitigation,
   management and long-term stewardship of contaminated sites long-term goal.”
   4. “Percentage of planned outputs delivered in support of the manage material
   streams, conserve resources and appropriately manage waste long-term goal.”

PART Efficiency Measure:
   5. “Average time (in days) for technical support centers to process and
   respond to requests for technical document review, statistical analysis and
   evaluation of characterization and treatability study plans.”

The LRP was most recently assessed under OMB’s PART in 2006. OMB rated
the program as “Adequate.” ORD was using the above PART measures at the
time of our evaluation although the PART process was under review by OMB.
Information for the first two PART measures identified above is obtained through
citation analysis, a type of bibliometric analysis. Citation analysis identifies each
time selected ORD publications are cited in peer-reviewed scientific literature.

During 2009, EPA issued a work assignment to an existing contract that, when
amended, committed 2,900 hours and about $222,000 to obtain bibliometric
analyses between April 1, 2009, and March 31, 2010. This work assignment,
which may be used by all ORD labs and centers, provides for the contractor to
perform a type of bibliometric analysis called decision document analysis (DDA).
This type of analysis identifies each time selected ORD publications are cited in
EPA, other federal, State, or comparable international organization’s decision
documents. Decision documents include regulations, records of decision, and
policy guidelines. According to an ORD program analyst, the DDA concept was
developed by ORD and the first DDA was completed in 2008 for the LRP.
ORD’s Office of Resource Management and Accountability (ORMA) estimated
the contract cost for this analysis was $8,000 and the accompanying citation
analysis was $15,600. ORD is evaluating the benefits of expanding DDA to use
in program assessment. This evaluation includes a pilot study. ORD plans to
obtain feedback about the usefulness of research products from the
people/organizations that requested the research. An ORD document summarized
the ongoing effort as follows:
       DDA are currently in the trial phase, but are expected to be a key
       indicator of program performance—specifically, the data should help
       indicate the relative quality, relevance, and impact of ORD’s science.

The contract also allows an EPA work assignment manager to request a
determination of how ORD research publications were used. Specifically, the
contract states: “As a part of this analysis the contractor shall determine whether
the research provided special tools or methods, baseline characterization, dose
response relationships, etc.”




                                  4

                                                                                                     10-P-0176



                 LRP’s Survey of Customers

                 From March to April 2008, ORD conducted a survey, known as a “partner
                 survey,” of the LRP’s customers/clients in EPA. The survey was to obtain EPA
                 client feedback on LRP’s effectiveness and the extent to which LRP’s clients used
                 its science products and technical support in their decision making. This survey
                 was to serve as a program management and performance assessment tool.

                 The survey results stated that 70 percent of the respondents were satisfied with the
                 quality of LRP products and services. The survey also stated that about
                 70 percent of the program offices and regions were “less than mostly satisfied”
                 with LRP’s (1) communications with clients on research project progress;
                 (2) willingness to involve clients in research planning; (3) lack of flexibility in
                 accommodating client needs; and (4) on-time delivery of products and services.

                 BOSC External Peer Reviews

                 The BOSC is a federal advisory committee established by EPA in 1996 to provide
                 advice and recommendations to ORD. EPA first began using BOSC to conduct
                 external peer reviews of its research programs in 2004, after considering other
                 peer review options, including contractors. The BOSC consists of an Executive
                 Committee (approximately 15 members) and smaller subcommittees that are
                 created, as needed, to evaluate individual ORD labs, centers, and research
                 programs. In selecting BOSC members, EPA considers candidates from the
                 environmental scientific/technical fields, health care professionals, academia,
                 industry, public and private research institutes or organizations, and other relevant
                 interest areas. According to the BOSC Executive Committee Designated Federal
                 Officer, ORD's Deputy Assistant Administrator for Science wanted the process to
                 be as transparent as possible and believed that BOSC, since it is subject to the
                 Federal Advisory Committee Act,11 would provide an independent and
                 transparent process.

                 The draft Board of Scientific Counselors Handbook for Subcommittee Chairs
                 states that BOSC subcommittees should evaluate the quality, relevance, structure,
                 performance, scientific leadership, and coordination/communication of ORD
                 research programs every 4-5 years during full program reviews. These
                 subcommittees also conduct mid-cycle reviews to review ORD’s progress in
                 addressing BOSC recommendations from prior full program reviews. The
                 estimated annual operating cost of the BOSC is $1,130,500, which includes 4.3
                 person-years of support. BOSC conducts from six to eight EPA ORD reviews
                 annually. ORD costs for these BOSC reviews range between $500,000 to
                 $700,000 per year. BOSC’s 2006 full review report on LRP stated that the
                 program is meeting its stated goals. The report also stated that the Land MYP

11
  The Federal Advisory Committee Act became law in 1972 and is the legal foundation defining how federal
advisory committees operate. The law has special emphasis on open meetings, chartering, public involvement, and
reporting.


                                                       5

                                                                                                       10-P-0176



                 provided an adequate roadmap for achieving the LRP’s multi-year goals in the
                 future. BOSC’s 2009 mid-cycle review report stated that the program exceeds
                 expectations, and was responsive to the recommendations put forth in the 2006
                 full BOSC review report.

Noteworthy Achievements
                 EPA’s FY 2009 Performance and Accountability Report listed measuring the
                 results of research as a 2010 challenge not only for EPA, but also for the broader
                 research community. To improve the measures for assessing the effectiveness of
                 federal research and development programs, ORD has been an active participant
                 and leader in the Science of Science Policy (SoSP) community, an interagency
                 effort fostered by the U.S. Office of Science and Technology Policy (OSTP).12 In
                 December 2008, ORD personnel attended the first SoSP workshop.13 This began
                 a dialogue between academic researchers and federal practitioners, to better
                 understand the efficacy and impact of Federal Research and Development
                 investment. In October 2009, EPA ORD and the U.S. Department of Agriculture
                 together led a second SoSP workshop, titled What’s in YOUR Tool Box? Best
                 Practices in R&D Prioritization, Management, and Evaluation, an interagency
                 effort to improve assessing research effectiveness. The workshop included
                 presentations and discussions during which R&D agencies presented their best
                 practices in Federal R&D prioritization, management, and evaluation, and how
                 metrics improve Federal R&D efficiency.

Scope and Methodology
                 We conducted our evaluation from May 2009 to May 2010, to focus on the
                 performance measures and tools used by ORD's LRP. However, the issues we
                 identified, and our recommendations to address those issues, may be applied to
                 some or all of ORD’s 11 other research programs. We conducted this evaluation
                 in accordance with generally accepted government auditing standards. Those
                 standards require that we plan and perform the evaluation to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and
                 conclusions based on our evaluation objectives. We believe the evidence
                 obtained provides a reasonable basis for our findings and conclusions based on
                 our evaluation objectives. Appendix A provides details on our scope and
                 methodology.




12
   OSTP was established by Congress in 1976 to advise the President and others within the Executive Office of the
President on the effects of science and technology on domestic and international affairs, and to lead interagency
efforts to develop and implement sound science and technology policies and budgets.
13
   The Science of Science Policy: A Federal Research Roadmap.


                                                        6

                                                                                   10-P-0176





                               Chapter 2

    ORD Performance Measures Need Improvement 

         The Land Research Program has employed a variety of methods to assess its
         research performance. These include (1) OMB PART measures, (2)
         customer/client feedback, and (3) peer review by the BOSC. We found that
         improvements are needed in all three areas to better enable ORD to assess LRP’s
         effectiveness. Specifically:
            •	 some of the LRP’s PART measures were not appropriate for use in
               assessing program performance; and

            •	 as implemented, ORD’s survey of LRP clients did not provide a
               meaningful measure of customer feedback.
         Further, the following two issues limit the usefulness of BOSC reviews:
            •	 the LRP lacks some key measures to aid in BOSC program reviews; and

            •	 ORD has not clearly defined elements of its long-term goal rating
               guidance for BOSC program reviews.

         Several underlying issues impacted ORD's development of LRP performance
         measures. These include the inherently difficult nature of establishing outcome-
         oriented research measures and ORD's decision not to tailor its measures to each
         research program, but rather to use similar measures across all of its research
         programs for PART. Additionally, according to the ORMA Accountability Team
         Leader, the matrix management approach employed in ORD's organizational
         structure also impacted ORD's development of LRP performance measures.
         As a result, ORD has invested resources in performance measures and tools that
         have not effectively measured key aspects of LRP performance. The measures
         have not provided LRP with the data to assess program progress towards its goals,
         identify areas for program improvement, or track the short-term outcomes of its
         research.

Some LRP PART Measures Not Appropriate to Assess Program
Performance
         Not all of the measures included in the LRP’s suite of PART measures were
         appropriate to assess the research program’s performance. For example, the LRP
         did not have measures that assessed progress towards short-term outcomes
         identified in the LRP Multi-Year Plan (MYP). Additionally, the LRP’s citation
         analysis PART measures were not meaningful to ORD program managers and




                                         7

                                                                                                       10-P-0176


                 were not linked to the program’s goals and objectives. Appendix B lists these and
                 other criteria for evaluating performance measures.

                 Some of the LRP’s individual PART measures, however, may provide benefit to
                 the program when considered as part of a larger suite of effective performance
                 measures. For example, LRP’s MYP provides annual performance goals and
                 annual performance measures14 that are used to track research outputs. Within the
                 framework of its MYP, the LRP measured whether its research outputs for each
                 LTG were completed in a timely manner. The LRP also measured the efficiency
                 of its technical support centers by measuring how long these centers took to
                 respond to technical requests made by EPA regions and program offices.

                 Although the LRP has taken steps to improve its measurement of program
                 outcomes and impacts, it continues to use its existing PART measures. ORD
                 anticipates that OMB will revise its PART guidance and requirements, and has
                 been waiting on new OMB guidance before revising its existing LRP measures.
                 However, ORD included the existing LRP PART measures in its Fiscal Year
                 2011 Annual Performance Plan and Congressional Justification. ORD plans to
                 continue to use its PART measures, even if the PART process is abandoned or
                 revised, because these measures are required under the Government Performance
                 and Results Act of 1993 (GPRA), according to the ORMA Accountability Team
                 Leader. Regardless of how LRP’s existing PART measures are reported in the
                 future, some of the LRP’s existing PART measures will not allow LRP to assess
                 progress towards its goals and objectives.

                 LRP PART Measures Do Not Assess Short-Term Outcomes

                 Despite OMB requirements for federal programs to use outcome-oriented
                 performance measures, none of the LRP’s five PART measures assess the short-
                 term outcomes15 identified in the LRP MYP. Outcome-oriented performance
                 measures allow for an assessment of the results of a program activity as compared
                 to its intended purpose. Such measures are required by OMB unless the program
                 can justify why it is unable to define satisfactory quantifiable outcome measures.
                 OMB’s PART guidance does not distinguish outcomes measures as long-term,
                 intermediate, or short-term. A 2008 National Research Council of the National

14
   According to ORD’s April 2008 guidance for preparing MYPs, the MYP structure forms the foundation for
ORD’s performance measurement, including annual performance tracking of key activities and outputs. MYPs
outline the sequence and relationship of annual performance goals needed to achieve each long-term goal (LTG),
and the annual performance measures that contribute to each annual performance goal. ORD defines annual
performance goals as major research outputs that are described in the context of the outcome to which they
contribute. They represent significant milestones along a critical path toward accomplishing the LTGs. Annual
performance measures are defined as research outputs that contribute to accomplishing an annual performance goal
by addressing the most important scientific issues for that particular annual performance goal. Annual performance
measures may include research products such as reports, journal articles, models, and evaluations.
15
   The short-term outcomes identified in the Land Research Program’s Multi-Year Plan (Fiscal Years 2007–2012)
are related to the utilization of research products by the Office of Solid Waste and Emergency Response and EPA
regions.


                                                        8

                                                                                                  10-P-0176


                Academies (NRC) report16 examined the use of outcome measures by research
                organizations in detail, and stated that it was not feasible for ORD to establish
                measures for its ultimate (i.e., long-term) outcomes. The NRC report stated that
                ultimate outcome-based metrics for evaluating the efficiency of research are
                neither achievable nor valid because:

                     •	 there is often a large gap in time between completing research and the
                        ultimate outcome of the research;
                     •	 a number of entities over which the research program has no control is
                        responsible for translating research results into outcomes; and
                     •	 the results of research may change the nature of the outcome.

                However, while it may not be possible to establish measures for ultimate
                outcomes, the 2008 NRC report said that federal research agencies should
                measure intermediate and/or short-term outcomes.

                The short-term outcomes that are expected from LRP research activities include
                client use of research products in:
                     •	   guidance
                     •	   records of decision
                     •	   site-specific applications
                     •	   regulations
                     •	   risk management decisions

                Although the LRP identified short-term outcomes in its MYP, it did not establish
                any PART performance measures that were linked to these short-term outcomes.
                OMB identified the LRP's PART measures as either output or efficiency
                measures. Figure 2.1 provides OMB’s definition of efficiency, outcome, and
                output performance measures. Output and efficiency measures can be useful for
                managing program performance; however, these types of measures do not provide
                an assessment of progress towards the intended outcomes of the program.




16
  Evaluating Research Efficiency in the U.S. Environmental Protection Agency, Committee on Evaluating the
Efficiency of Research and Development Programs at the U.S. Environmental Protection Agency, The National
Academies. ISBN: 0-309-11685-6. The National Academies Press, Washington, DC, 2008.


                                                      9

                                                                                           10-P-0176


Figure 2.1: OMB Definitions for Selected Types of Performance Measures


     OMB Definitions for Efficiency, Outcome, and Output Performance Measures


 Efficiency measure: Efficiency measures reflect the economical and effective acquisition,
 utilization, and management of resources to achieve program outcomes or produce program
 outputs.

 Outcome measure: A measure of the intended result or impact of carrying out a program or
 activity. They define an event or condition that is external to the program or activity and that is of
 direct importance to the intended beneficiaries and/or the general public.

 Output measure: Outputs describe the level of activity that will be provided over a period of
 time, including a description of the characteristics (e.g., timeliness) established as standards for
 the activity. Outputs refer to the internal activities of a program (i.e., the products and services
 delivered).


Source: Guide to the Program Assessment Rating Tool (PART). Program Assessment Rating Tool Guidance 

No. 2008-01. Office of Management and Budget, January 2008. 



Although the LRP has not revised its existing PART measures, ORD personnel
have recently started using the following performance measurement tools to help
measure short-term outcomes:
   •	 Decision Document Analysis (DDA) - identifies each time selected ORD
      publications are cited in decision documents of EPA or other federal,
      State, or comparable international organizations. Decision documents
      include regulations, records of decision, and policy guidelines. ORD is
      evaluating the benefits of expanding DDA for use in program assessment.
      See Chapter 1 for a more detailed description.

   •	 Site-specific summary tables – In 2009, the LRP National Program
      Director (NPD) began tracking site-specific short-term outcomes for
      ground water research. The NPD said that tracking the users of LRP
      research is important and that this effort is more useful than tracking the
      current PART measures.

Without short-term outcome measures, it is difficult for the LRP to assess whether
its work is meeting its intended purpose and goals.

Current Citation Analysis Measures Do Not Meet Key Criteria for
Effective Performance Measurement

The LRP citation analysis measures (PART measures 1 and 2) are not meaningful
to ORD program managers, and are not linked to program goals and objectives.
Based on our review of performance measurement literature, we concluded that
such elements were key characteristics of effective performance measures. See
Appendix B for an OIG-developed list of criteria for evaluating performance
measures.



                                        10

                                                                                                      10-P-0176





                 Meaningful to ORD Program Managers

                 The citation analysis measures employed by the LRP are not meaningful to the
                 ORD program managers, particularly the NPD. In our opinion, a measure should
                 demonstrate several characteristics to be considered meaningful to internal
                 stakeholders, such as ORD program managers.17 However, the LRP’s citation
                 analysis measures do not meet key characteristics we identified for effective
                 measures. For example, the measures do not drive actions required to achieve
                 strategic goals because the measures are not linked to the LRP’s goals, objectives,
                 or short-term outcomes (this is discussed in further detail below).

                 Further, the LRP’s citation analysis measures are not used by the program
                 managers, or perceived by some ORD personnel as valuable tools to managing
                 the program. According to ORMA, the citation analysis PART measures are not
                 widely used by ORD program managers. The LRP’s citation analysis measures
                 were adopted by ORD in an effort to satisfy OMB’s PART requirements,
                 according to ORMA’s Acting Accountability Team Leader.

                 Linked to Program Goals and Objectives
                 The LRP’s citation analysis measures are not linked to the program’s long-term
                 goals, or the short-term outcomes identified in its MYP. The LRP’s long-term
                 goals are related to clients’ requests and use of its research products. However,
                 the citation analysis measures do not identify information regarding the use of the
                 LRP’s research products by its primary clients: EPA program and regional
                 offices. Therefore, these measures do not indicate the LRP’s progress towards
                 program goals or its strategic objectives.

                 According to ORD, the LRP’s citation analysis measures (i.e., percentage of
                 highly cited publications, and percentage of publications in high-impact journals)
                 are indicators of research quality. However, existing literature presents multiple
                 opinions regarding what citations of scientific work actually measure. For
                 example, a 2005 book on citation analysis in research evaluation stated that it is
                 “… extremely difficult if not impossible to express what citations measure in a
                 single theoretical concept…”18 A 2009 journal article discussing the use and
                 misuse of journal metrics and other citation indicators stated that:
                          Generally, citations represent the notions of use, reception, utility,
                          influence, significance, and the somewhat nebulous word
                          “impact.” Citations do not, however, represent measures of
                          quality. Quality assessments require human judgment.19


17
   See Appendix B, number 5.

18
   Moed, Henk F., 2005, Citation Analysis in Research Evaluation.

19
   Pendlebury, David A., 2009, "The Use and Misuse of Journal Metrics and Other Citation Indicators." Archivum 

Immunologiae et Therapiae Experimentalis 57(1):1-11. 



                                                       11

                                                                                               10-P-0176



                Several studies have shown a correlation between highly cited publications and
                other indicators of research quality (e.g., peer review results). Therefore, when
                used as a supplementary tool in a peer review process, citation analysis measures
                can aid in assessments of research quality. However, in an August 2009 meeting,
                one member of BOSC’s Executive Committee, the group charged with
                conducting peer review evaluations of ORD research program performance, stated
                that ORD’s bibliometric analysis measures (i.e., citation analysis measures) were
                not effective in communicating the quality or quantity of research that had been
                accomplished. Another member stated that the citation analysis measures did not
                provide information to address the full scope of BOSC reviews.

                For citation analysis to be an effective indicator of quality, it should be measuring
                aspects of program performance that are linked to the LRP’s definition of research
                quality, as well as its goals and objectives for research quality. The term
                “quality” can be defined differently by different programs and stakeholders. For
                example, the National Performance Review, in its 1997 Benchmarking Study
                Report, discusses the quality of an output in terms of the extent to which a client
                is satisfied with the output. In that sense, citation analysis would not provide a
                measure of quality for the LRP.
                ORD’s 2001 Strategic Plan states:
                        EPA is a mission-oriented agency; its work is focused on the specific goals
                        and objectives described in EPA’s Strategic Plan. ORD provides the
                        scientific support that enables the Agency to meet those goals and
                        objectives. EPA depends on ORD; its scientific reputation is built on our
                        work. As a result, our research must respond to and anticipate the
                        Agency’s needs. Science that is not supportive of EPA’s mission may be
                        important, but it need not, and should not, be done by ORD.

                Measures that are not meaningful to internal stakeholders (such as ORD program
                managers), and not linked to the program’s long-term goals, can have negative
                effects on the research program. For example, a 1999 National Academy of
                Sciences (NAS) report20 stated that for measures such as citation analysis,
                “…researchers are apt to take actions that artificially increase the number of
                citations they receive…” The NAS also found that researchers are apt to
                “… reduce their research in fields that offer less opportunity of immediate or
                frequent publication or in critical related fields ... that do not offer publication
                opportunities.” Such actions can create goal displacement within the research
                program, and result in missed opportunities to focus research on EPA’s priority
                needs.




20
  Evaluating Federal Research Programs: Research and the Government Performance and Results Act, Committee
on Science, Engineering, and Public Policy (COSEPUP), National Academy of Sciences, National Academy of
Engineering, Institute of Medicine, ISBN: 0-309-51798-2. National Academy Press, Washington, DC, 1999.


                                                    12

                                                                                                10-P-0176


                    LRP PART Measures Not Effective Because ORD Did Not Establish
                    Program-Specific PART Measures

                    Some of the LRP PART measures were not effective in assessing the progress
                    towards LRP goals and objectives because ORD decided to use similar measures
                    across all of its research programs. ORD did not create measures to address the
                    specific goals and objectives of LRP. Factors that contributed to this approach
                    included the difficult nature of establishing outcome-oriented measures of
                    research products, OMB's PART requirements, and the organizational structure
                    employed by ORD.

                    Research outcomes are generally difficult to track. The NRC found that the
                    useful outcomes of basic research cannot be measured on an annual basis because
                    their timing and nature are inherently unpredictable.21 OMB acknowledged this
                    point in a 2004 budget statement regarding research, noting that “It is preferable
                    to have outcome measures, but such measures are often not very practical to
                    collect or use on an annual basis.” The LRP NPD also stated that no automatic
                    outcome occurs from a given technical report, and that it sometimes takes years
                    for the research product to be applied or used. This time lag makes it difficult for
                    the LRP to get accurate client feedback on using some of its more recent research
                    products.

                    According to the ORMA Accountability Team Leader, ORD tried to come up
                    with a standard way of assessing performance across its programs that OMB
                    would agree to. The resulting measures, according to ORMA's Acting
                    Accountability Team Leader, were put in place to comply with OMB PART
                    requirements. ORD only recently made advances in developing measures of its
                    short-term outcomes (see information above related to DDA and site-specific
                    summary tables).

                    Although each of ORD’s research programs has unique research outputs, long-
                    term goals, and expected outcomes, ORD applied similar PART measures to all of
                    its research programs in an effort to establish a general performance measurement
                    framework to propose to OMB. As part of this framework, the NPDs were
                    responsible for working with ORD’s labs, centers, and offices to get agreement on
                    the research outputs for a given research program.

                    ORMA’s Accountability Team Leader stated that there is no clear line of
                    accountability for who is responsible for managing performance in ORD’s
                    research programs. He said that each level of ORD’s organization helps manage
                    research performance. The NPDs are held accountable for research program
                    performance, yet it is the lab/center directors that have the ultimate responsibility
                    to develop ORD’s research products and decide how they are produced.
                    According to ORMA’s Accountability Team Leader, if ORD research programs
                    adopted a variety of performance measures, it would be difficult for lab/center
21
     See footnote 16.


                                                      13

                                                                                                     10-P-0176


                 directors to track the measures for each research program. Due in part to its
                 management structure, ORD adopted a one-size-fits-all performance measurement
                 approach for PART. ORD stated in its response to our draft report that the matrix
                 management structure has assisted ORD in managing the complex nature of the
                 research being conducted. However, in regard to performance measurement, we
                 found that the matrix management structure contributed to LRP PART measures
                 that are not effective for assessing the progress towards the LRP’s goals and
                 short-term outcomes.

                 ORD ORMA is waiting on new guidance from OMB before revising any PART
                 measures, and continues to use the current measures. EPA included the existing
                 LRP PART measures in its Fiscal Year 2011 Annual Performance Plan and
                 Congressional Justification.

ORD’s Survey of LRP Clients Did Not Provide a Meaningful Measure
of Customer Feedback
                 ORD’s 2008 survey of LRP clients did not provide a meaningful measure of
                 customer feedback because ORD’s client survey was not reliable. According to
                 ORD, the LRP survey was the first survey of its kind and results of the process
                 were used to develop ORD guidance for subsequent surveys.

                 In designing and implementing the client survey, ORD did not:

                     •	 identify the universe of LRP clients before administering the survey;
                     •	 conduct a representative sample of LRP clients; or
                     •	 obtain a sufficient number of responses (and did not adhere to its own
                        criteria for minimum number of responses).

                 As a result, the survey was not a reliable measure of LRP performance. The ORD
                 Partner Survey Methodology document stated that:

                          The partner list should be (1) inclusive of all program partners or (2) a
                          representative sample large enough to ensure a high confidence level of
                          results. The ideal sample size to maintain a 95% confidence level +/-10%
                          should be no less than 100 respondents. If 100 partners cannot be
                          identified to respond to the survey, then the sample should include as
                          many partners as possible, knowing that the confidence level will diminish
                          as the number of respondents decreases.

                 However, ORD did not develop a complete universe of LRP’s clients. According
                 to ORMA, the clients that received the survey were recommended by the LRP
                 NPD with feedback from the Research Coordination Team.22 Those
                 recommendations resulted in the survey being sent to 103 EPA clients in EPA
22
  The Land Research Coordination Team was established by EPA ORD to facilitate research planning and
communication in the Land Research Program so that research meets the highest priority needs of the Agency.


                                                       14

                                                                                                  10-P-0176


                       regions and program offices. Of the 103 surveys distributed, ORD received 50
                       responses. This was not a representative survey of LRP’s clients because it did
                       not include all clients, was not large enough to ensure confidence in the results,
                       did not obtain the minimum number of 100 respondents desired, and did not
                       sample a sufficient number of clients to ensure statistical validity.

                       ORD’s draft 2009 guidance states that Client Survey Data and Client Use of ORD
                       Research are two pieces of evidence that BOSC should use in assessing the
                       quality and impact of the research program. Similarly, ARL23 listed three main
                       evaluation tools (i.e., peer review, metrics, and customer evaluation) for assessing
                       performance at research organizations. ARL stated that customer evaluation was
                       very useful in assessing research relevance and productivity.

                       In 2009, BOSC also identified concerns with ORD’s survey, noting that ORD’s
                       client survey should be improved so that it is informative or it should be
                       abandoned. As currently conducted, BOSC found ORD’s client surveys of
                       limited utility. As of April 2010, ORMA was reassessing its approach to client
                       surveys and looking into other ways of obtaining customer feedback.

                       The current status of the LRP survey is unclear. While we understand that
                       ORMA is reassessing its approach to surveys and looking into other potential
                       avenues for collecting customer feedback, the LRP must have a reliable tool for
                       gathering performance data. Without a reliable method to assess the relevance of
                       its research products, the LRP lacks sufficient information to determine:
                          •   how well the organization is doing,
                          •   the organization’s progress toward meeting its goals,
                          •   customers’ satisfaction with research produced, and
                          •   areas of necessary improvement.

LRP Lacks Some Key Measures to Aid BOSC Program Evaluations
                       Key performance measures were not in place for the 2006 BOSC review of the
                       LRP, and current LRP measures are not sufficient to aid in BOSC program
                       evaluations. Since 2006, ORD has taken steps to improve its guidance for BOSC
                       program reviews, such as including a list of performance rating materials that
                       research programs should supply to BOSC prior to program reviews. Several
                       underlying issues impacted ORD's development of LRP performance measures.
                       These include the inherently difficult nature of establishing outcome-oriented
                       research measures and ORD's decision not to tailor its measures to each research
                       program, but rather to use similar measures across all of its research programs for
                       PART. Additionally, according to the ORMA Accountability Team Leader, the
                       matrix management approach employed in ORD's organizational structure also
                       impacted ORD's development of LRP performance measures. As a result, BOSC
                       may not be able to effectively recommend actions to improve research program

23
     See footnote 5.


                                                        15

                                                                                                         10-P-0176


                  quality, relevance, structure, performance, scientific leadership,
                  coordination/communication, and outcomes.

                  Key Performance Measures Not in Place for 2006 BOSC Review

                  At the time of the 2006 BOSC review, the LRP did not have measures in place to
                  capture client feedback data or to measure the short-term outcomes of its research
                  products. These measures were not in place because ORD had not fully
                  developed performance measurement tools such as client surveys and decision
                  document analysis by the time of the 2006 BOSC review. Consequently, BOSC
                  was left to draw conclusions for certain aspects of its 2006 review without
                  comprehensive performance data on the relevance of LRP’s products, and its
                  progress towards reaching short-term outcomes.

                  In its 2006 review, BOSC was tasked by ORD with answering five program
                  assessment charge questions. ORD asked BOSC to consider several factors in
                  evaluating each charge question. Table 2.1 presents selected charge questions and
                  “factors considered”24 from the 2006 BOSC review aimed at determining whether
                  the LRP met stakeholder25 needs and whether LRP products were used by clients
                  and stakeholders.

                  Table 2.1: Selected Charge Questions and Factors Considered from BOSC’s 2006
                  Review of ORD’s Land Research Program
                     Review
                                       Charge Question                     Selected Factors Considered
                    Category
                                  Is the research program        •   Is the program responsive to Agency and other
                                  relevant to and consistent         stakeholder needs and priorities?
                   Relevance      with Agency goals and          •   Are outputs from the program used by
                                  customer needs, and is it          stakeholders?
                                  sufficiently flexible?
                                                                 •   Has the program made significant progress
                                  Is the research program            toward each of the LTGs?
                                  making timely progress in      •   Has the program met stakeholder needs in a
                   Performance    addressing key scientific          timely and useful way?
                                  questions and LTGs?            •   Is there evidence for application of products
                                                                     and knowledge by clients that would lead
                                                                     toward achieving program outcomes?

                  Source: Selected information from BOSC’s 2006 final report, Review of the Office of Research and
                  Development’s Land Restoration and Preservation Research Program at the U.S. Environmental
                  Protection Agency.




24
   BOSC was tasked with answering five charge questions addressing four review categories (relevance, quality,
performance, and scientific leadership) in its 2006 review of LRP. For each charge question, BOSC was tasked with
addressing a series of sub-questions and issues which it refers to in its report as “factors considered.” Each of the
“factors considered” is addressed individually by BOSC in its report, and cumulatively addresses the overall charge
question.
25
   In its 2006 review of LRP, BOSC referred to EPA program offices and regions, federal agencies, States, and
responsible parties and regulated entities as stakeholders that used LRP outputs.



                                                         16

                                                                           10-P-0176


However, none of the corresponding sections in the 2006 BOSC report presented
data to support the conclusions made. For example, BOSC concluded that the
outputs generated by the LRP were used by other EPA program offices and
regions, federal agencies, States, and responsible and regulated parties, but did not
provide data to support how extensively these outputs were used. Further, the
BOSC report stated that it was unclear how ORD intended to measure or track
client use, and incorporate such data into statements about the performance and
impact of the LRP. Without such measures of client use, BOSC was left to draw
conclusions regarding research relevance and outcomes based only on the
testimony that it obtained from LRP personnel and selected LRP clients during
the program review.

As shown in Table 2.1, another factor that BOSC considered as part of its 2006
review was whether there was any “…evidence for application of the LRP’s
products by clients that would lead to achieving program outcomes.” However,
BOSC did not present quantifiable data or evidence of client use of the LRP’s
products to address that “factor considered.” A performance measurement tool
such as DDA could have provided this type of performance data to aid BOSC in
addressing this factor; however, the LRP did not have a performance measure to
track this type of data at the time of the 2006 BOSC review.

Key LRP Measures Not Sufficient to Aid BOSC Reviews

Since BOSC’s 2006 peer review of the LRP, ORD has updated its guidance for
BOSC reviews, and included a table of suggested background information and
performance rating materials that should be provided to BOSC prior to program
reviews. The updated guidance identifies research program annual performance
goals and measures, results of bibliometric analysis, client surveys, and client
testimonials as performance data that should be supplied to BOSC for program
reviews. However, an ORMA manager and a BOSC Executive Committee
member both told us that the performance measurement data that ORD provided
to BOSC for its program reviews have not been sufficient to fully address all of
BOSC’s program assessment charge questions.

Independent, expert review is better suited for judging research quality than
judging research relevance and performance. According to a BOSC Executive
Committee member, BOSC uses a variety of methods to assess research program
quality, including its own expertise. However, because peer review panels are
less equipped to judge research relevance and performance, it is particularly
important for ORD to provide BOSC with appropriate performance data related to
the relevance and performance of the research program.

The BOSC Executive Committee member told us that the performance data
provided by ORD have been useful but somewhat incomplete. He said this
situation can make charge question evaluation “somewhat uneven” across reviews
of different ORD research programs, labs, or centers. Specifically, he said that


                                 17

                                                                                   10-P-0176


          the performance data are generally inadequate to evaluate the program from an
          investment efficiency perspective. The NPD for the LRP told us that information
          on client use and the short-term outcomes of the LRP’s research are provided in
          poster presentations given to BOSC during the program review process. A BOSC
          Executive Committee member acknowledged that such testimonial data are
          considered by BOSC to evaluate program outcomes. However, he also said that
          the data regarding client use of research were “somewhat inconsistent” and that a
          tracking tool that tracks how clients use research products would be very helpful
          to the BOSC committees in evaluating short-term outcomes.

          The program review process is highly dependent on ORD providing the right
          materials to fully inform the BOSC subcommittee’s evaluation of the program.
          Therefore, reliable data must be available for BOSC to address all of its charge
          questions and “factors considered.”

ORD Has Not Clearly Defined Elements of Its Long-Term Goal (LTG)
Rating Guidance for BOSC Program Reviews
          Although ORD has developed LTG ratings guidance to assist BOSC
          subcommittees in applying qualitative LTG ratings, aspects of this guidance have
          not been clearly defined. Specifically, ORD has not linked BOSC summary
          assessment charge questions to the LTG ratings definitions, and the LTG ratings
          definitions did not clearly define what constitutes program success. While the
          narrative summary that accompanies LTG ratings is important for managing
          individual programs like the LRP, the rating itself is also an indicator of ORD
          program performance. LTG ratings allow for cross-organization assessment, and
          improvements in LTG ratings indicate progress from one BOSC program review
          to the next, according to ORD’s ORMA Accountability Team Leader. ORD
          guidance stated that since the BOSC qualitative rating tool is applied across all
          ORD research programs, it is important to apply the tool consistently. However,
          it has been challenging for expert review panels, including BOSC, to reach
          consensus on and apply qualitative program ratings. Because ORD has not
          clearly defined elements of its LTG rating guidance, it could not ensure that
          BOSC subcommittees have applied LTG ratings consistently.




                                          18

                                                                                10-P-0176



ORD Has Not Linked BOSC Summary Assessment Charge
Questions to the LTG Ratings Definitions

The ORD ratings methodology contained in the draft BOSC Handbook for
Subcommittee Chairs states that BOSC should assess each LTG according to
three summary assessment charge questions (see Figure 2.2). The summary
assessment charge questions
represent a subset of the       Figure 2.2: BOSC Summary Assessment
program assessment charge       Charge Questions
questions, used by BOSC to
evaluate the entire research     Charge Question 1
                                 How appropriate is the science used to achieve each
program. Based on BOSC’s         LTG, i.e., is the program asking the right questions,
assessment of the program’s      with the most appropriate methods?
progress towards meeting
                                 Charge Question 2
LTGs, ORD asks BOSC to           How high is the scientific quality of the program’s
assign one of four qualitative   research products?
ratings (i.e., Exceptional,
Exceeds Expectations, Meets      Charge Question 3
                                 To what extent are the program results being used by
Expectations, and Not            environmental decision-makers to inform decisions
Satisfactory).                   and achieve results?


However, ORD has not 	             Source: Board of Scientific Counselors Handbook for
linked one of the three            Subcommittee Chairs, November 2008 (Draft).

summary assessment charge
questions to elements in the qualitative rating definitions. As shown in the table
in Appendix C, Charge Question 3 has not been addressed by the definitions that
ORD provided for each qualitative rating option. None of the LTG rating
definitions provided by ORD define the extent to which program results have
been used by environmental decision makers to inform decisions and achieve
results. As such, it is unclear how BOSC’s analysis for Charge Question 3 would
affect its qualitative rating for each LTG.

Further, an element of the qualitative ratings has not been linked to any of the
summary assessment charge questions. Each rating includes an assessment of the
speed at which work products (tools, methods, etc.) are produced and milestones
met. However, none of the summary charge questions addresses this type of
assessment. If BOSC only focused on the three summary assessment charge
questions, it would not be able to address the timeliness aspect of the qualitative
ratings. ORD’s methodology states that the qualitative LTG rating may reflect
considerations beyond the summary assessment charge questions. However, the
absence of a direct link between summary assessment charge questions and LTG
rating definitions means that performance information considered by one BOSC
subcommittee when assigning LTG ratings may not be considered by another.




                                   19

                                                                         10-P-0176


The LTG Ratings Definitions Did Not Clearly Define What Constitutes
Program Success

ORD guidance states that the only way to ensure consistent application of LTG
ratings is for each subcommittee to follow the rating category definitions
provided. BOSC subcommittees are not to interpret the rating definitions when
assigning ratings. However, the ratings definitions have not clearly defined what
constitutes program success. For example, ORD’s definition for the “Meets
Expectations” rating is as follows:

       Meets Expectations: indicates that the program is meeting most of its
       goals. Programs meet expectations in terms of addressing the appropriate
       scientific questions to meet their goals, and work products are being
       produced and milestones are being reached in a timely manner. The
       quality of the science being done is competent or better.

Rather than clearly defining program success as it relates to ORD’s performance
expectations, the above definition contains ambiguous phrases such as “most of
its goals,” “appropriate scientific questions," and “in a timely manner.” Since the
ratings definitions represent general guidance applied across programs, ORD may
find it difficult to add clarity and focus to the definitions. However, ORD could
supplement the definitions with program-specific milestones, and benchmarks for
success, to further assist BOSC subcommittees in differentiating between the
rating options.

Based on our review of performance measurement literature (see Appendix B),
performance measures should be well-defined and logically designed. Well-
defined measures are clear, focused, and unambiguous to avoid misinterpretation.
Logically designed measures include milestones and/or indicators to express
qualitative criteria, and have reliable benchmark data, standards, or alternative
frames of reference for interpreting the measure. ORD guidance provides a list of
performance rating materials to be considered by BOSC subcommittees in
performing reviews and assigning LTG ratings. However, ORD has not
established meaningful program-specific milestones for each of these items. The
ORMA Accountability Team Leader stated that setting performance milestones is
one of ORMA’s most difficult challenges because it requires being able to
measure something consistently over time. He further stated that “we haven’t had
enough historical trend data upon which to set truly meaningful targets--those that
would be informed by past performance history or benchmarked to some ideal
level of performance.” Further, ORD does not provide BOSC benchmarking data
that would further assist subcommittees in differentiating between the ratings
options.

Without supplemental milestones and benchmarking data, ORD’s ratings tool
does not meet performance measurement criteria for well-defined and logically
designed measures. To apply an LTG rating, BOSC members have to interpret


                                 20

                                                                                10-P-0176


         the definitions and establish their own expectations for performance. A BOSC
         Land Subcommittee member expressed similar concerns, stating:

                …most BOSC subcommittees struggle for a time to come up with
                meaningful and quantitative applications of the ratings. The ratings
                guidance provided with the charge questions are useful in that they offer
                perspective on why the rating is important and the types of ORD activities
                and accomplishment that should be considered as part of the rating.
                However, building a consensus opinion within the committee usually takes
                a while, as members first apply the guidance based on their own
                experience and personal perspective, and then through the subcommittee
                discussions there is agreement reached regarding what are reasonable
                “expectations” regarding the progress and quality of the science in light
                of the complexity and novelty of the research activity as well as funding
                and organizational constraints.

         As demonstrated by the Subcommittee member’s statement, BOSC
         subcommittees may be setting their own expectations for program success, rather
         than evaluating programs based on consistent, well-defined performance criteria
         established prior to program reviews. Expectations for success should be
         established by ORD management, or by the directors of the research programs.
         However, in the absence of meaningful milestones and benchmarks, BOSC
         subcommittees have not had reliable reference points or standards against which
         program performance or achievements could be assessed. If appropriately linked
         to ORD’s ratings definitions, such performance information would assist BOSC
         subcommittees in differentiating between the ratings options, and promote
         consistency in ratings application.

Conclusions
         ORD has not developed the LRP-specific measures and tools needed to manage
         and improve the effectiveness of LRP research products. Individual performance
         measures and measurement tools within the LRP’s framework are not appropriate
         for assessing the effectiveness of the LRP’s research products or to assess
         progress towards short-term outcomes. Areas in each of the LRP’s performance
         measurement tools need improvement, including the metrics provided to OMB for
         its PART reviews, ORD’s survey of LRP clients, and the data and guidance
         provided to BOSC for its peer review of the LRP. The LRP needs more effective
         measures and tools for identifying areas for program improvement and assessing
         research outcomes.




                                        21

                                                                                    10-P-0176



Recommendations

         We recommend that the Assistant Administrator for Research and Development:

         2-1	   Develop one or more measures linked to the short-term outcomes
                identified in the LRP MYP.

         2-2	   Augment the LRP’s citation analysis measures (PART Measures 1 and 2)
                with measures that are meaningful to ORD program managers, and that
                are linked specifically to the LRP’s goals and objectives.

         2-3	   Develop an implementation plan for the LRP client survey to:

                ¾   Identify the universe of LRP clients,
                ¾   Randomly select an appropriate target population,
                ¾   Conduct a representative survey of LRP clients, and
                ¾   Obtain a statistically valid response rate.

                If ORD decides not to use the client survey tool, then ORD should develop
                a reliable alternative mechanism for collecting customer feedback along
                with an implementation plan for the alternative mechanism.

         2-4	   Provide BOSC with the following performance measurement data prior to
                full program reviews: (1) the results of the most recent client survey (or its
                alternative mechanism for collecting client feedback), (2) data sufficient to
                assess LRP’s progress towards achieving program goals and outcomes,
                and (3) other data needed to support each of BOSC’s peer review charge
                questions.

         2-5	   Require that BOSC program review reports include an explicit discussion
                of the reliability and suitability of the performance data that ORD
                provided to BOSC for each charge question and factor considered.

         2-6	   Revise ORD’s guidance to BOSC for LTG ratings to ensure that all
                aspects of the summary assessment charge questions are clearly linked to
                the qualitative ratings definitions.

         2-7	   Supplement the current general LTG ratings definitions with program-
                specific milestones, and benchmarks for success, that are linked to
                elements in the LTG ratings definitions.

Agency Comments and OIG Evaluation

         The Agency generally agreed with our recommendations and stated that ORD is
         actively incorporating these recommendations into the LRP program and, where
         appropriate, activities relevant to all BOSC research program reviews. However,


                                          22

                                                                           10-P-0176



ORD responded that for recommendations closely linked to the OMB PART
(recommendations 2-2, 2-6, and 2-7), it is awaiting additional guidance from
OMB before proposing specific corrective actions. While we understand the need
for ORD to follow OMB guidance, existing OMB guidance does not preclude
ORD from augmenting its measures with more meaningful measures. Developing
these measures in the interim would provide ORD with an opportunity to field test
its measures before OMB revises its guidance and demonstrate the benefits of
such measures as potential future measures. In our view, ORD should take action
to implement recommendations 2-2, 2-6, and 2-7 in the interim. A summary of
the Agency’s response to each recommendation and our analysis follows.

Recommendation 2-1: ORD agreed to develop procedures, which the LRP NPD
and laboratory line management will follow, to produce one or more measures
linked to the short-term outcomes. ORD also responded that it will publish a
report on recent outcomes of the LRP. Subsequent to ORD’s response to the draft
report, we requested and received clarification from ORD that it will develop short-
term outcome measures for LRP by January 2011. We accept ORD’s planned
actions and the timeline for completion of the recommendation.

Recommendation 2-2: ORD responded that it will develop measures that are
meaningful to ORD’s program managers, pending OMB guidance. While we
understand the need for ORD to follow OMB guidance, existing OMB guidance
does not preclude ORD from augmenting its current citation analysis measures
with more meaningful measures. We consider recommendation 2-2 to be open
and unresolved.

Recommendation 2-3: ORD stated that it will develop a plan for obtaining LRP
partner feedback. The plan will be completed by February 2011. We accept
ORD’s planned actions and the timeline for completion of the recommendation.

Recommendation 2-4: ORD responded that it will provide BOSC with the
information listed (results of the most recent client survey or alternative; data on
LRP’s progress in achieving program goals and outcomes; and data to support
each peer review charge question) to inform future BOSC reviews as appropriate
for each new research program review. Subsequent to ORD’s response to the draft
report, we requested and received clarification from ORD that it will provide
performance information to BOSC prior to the research program reviews. We
accept ORD’s planned actions and the timeline for completion of the
recommendation.

Recommendation 2-5: ORD stated that it will revise the BOSC Program Review
Report Guidance document by June 2011 to include this recommendation (an
explicit discussion of the reliability and suitability of the performance data for
each charge question and factor considered). We accept ORD’s planned actions
and the timeline for completion of the recommendation.




                                 23

                                                                         10-P-0176


Recommendations 2-6 and 2-7: ORD stated that it is waiting for OMB direction
before revising or eliminating the BOSC rating measures. ORD further stated that
if it continues rating LTGs, these recommendations will be addressed. As long as
ORD continues to have these LTG ratings, we continue to believe that ORD
should ensure that all aspects of the summary assessment charge questions are
clearly linked to the qualitative ratings definitions. Further, we believe that ORD
should supplement the current general LTG ratings definitions with program-
specific milestones, and benchmarks for success, that are linked to elements in the
LTG ratings definitions. We consider Recommendations 2-6 and 2-7 to be open
and unresolved.

The Agency also provided clarification comments related to the draft report. We
made changes to the final report based on these comments, as appropriate. The
Agency’s complete written response is in Appendix D. Our evaluation of the
Agency’s response is in Appendix E.




                                24

                                                                                                                                                10-P-0176



                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                                      POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                          Planned
    Rec.    Page                                                                                                         Completion   Claimed    Agreed To
    No.      No.                            Subject                             Status1         Action Official             Date      Amount      Amount

    2-1      22     Develop one or more measures linked to the short-             C        Assistant Administrator for
                    term outcomes identified in the LRP MYP.                              Research and Development

    2-2       22    Augment the LRP’s citation analysis measures                  U        Assistant Administrator for
                    (PART Measures 1 and 2) with measures that are                        Research and Development
                    meaningful to ORD program managers, and that
                    are linked specifically to the LRP’s goals and
                    objectives.

    2-3      22     Develop an implementation plan for the LRP client             C        Assistant Administrator for
                    survey to:                                                            Research and Development

                      ¾ Identify the universe of LRP clients,
                      ¾ Randomly select an appropriate target
                        population,
                      ¾ Conduct a representative survey of LRP
                        clients, and
                      ¾ Obtain a statistically valid response rate.

                   If ORD decides not to use the client survey tool,
                   then ORD should develop a reliable alternative
                   mechanism for collecting customer feedback along
                   with an implementation plan for the alternative
                   mechanism.
    2-4      22     Provide BOSC with the following performance                   C        Assistant Administrator for
                    measurement data prior to full program reviews:                       Research and Development
                    (1) the results of the most recent client survey
                    (or its alternative mechanism for collecting client
                    feedback), (2) data sufficient to assess LRP’s
                    progress towards achieving program goals and
                    outcomes, and (3) other data needed to support
                    each of BOSC’s peer review charge questions.

    2-5       22    Require that BOSC program review reports include              C        Assistant Administrator for
                    an explicit discussion of the reliability and suitability             Research and Development
                    of the performance data that ORD provided to
                    BOSC for each charge question and factor
                    considered.

    2-6       22    Revise ORD’s guidance to BOSC for LTG ratings                 U        Assistant Administrator for
                    to ensure that all aspects of the summary                             Research and Development
                    assessment charge questions are clearly linked to
                    the qualitative ratings definitions.

    2-7       22    Supplement the current general LTG ratings                    U        Assistant Administrator for
                    definitions with program-specific milestones, and                     Research and Development
                    benchmarks for success, that are linked to
                    elements in the LTG ratings definitions.


1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                      25

                                                                                        10-P-0176


                                                                                   Appendix A

                 Details on Scope and Methodology
Our evaluation focused on the performance measures used by ORD’s Land Research Program.
However, the issues we identified, and our recommendations to address those issues, may be
applied to other ORD research programs. We selected the Land Research Program, in part,
because the program had not received a full BOSC review since 2006 and was not scheduled for
one in the near future. We reviewed ORD guidance, policies, and procedures for performance
measurement to identify ORD’s guidelines pertaining to establishing effective research
performance measures. We reviewed relevant literature (see the list at the end of this appendix)
to identify established criteria for evaluating the effectiveness of performance measures. We
evaluated LRP measures against these established criteria. We reviewed the most recent
Bibliometric and Decision Document Analysis Report to determine any recent innovative
developments which might be used to measure the effectiveness of ORD research programs.
This report was completed for the Air Research Program in June 2009. We reviewed the
supporting data provided by ORD to BOSC for the 2006 BOSC review.

We interviewed ORMA’s staff, the NPD for Land Research, and the Designated Federal Officers
for BOSC to identify performance measures used by the LRP, collect information on these
measures, discuss current work on performance measurement, and discuss potential changes to
existing measures. We contacted key LRP clients within EPA’s Office of Solid Waste and
Emergency Response, and within EPA regions that administer Resource Conservation and
Recovery Act and Comprehensive Environmental Response, Compensation, and Liability Act
programs, to obtain feedback on the effectiveness of the LRP client survey as a performance
measurement tool. We also contacted BOSC Executive and Land Subcommittee members to
obtain feedback related to their perspective of ORD policies and the adequacy of the information
provided by ORD for BOSC reviews. We conducted our field work from May 2009 to May
2010.

Review of Management (Internal) Controls

Generally accepted government auditing standards require that auditors obtain an understanding
of internal controls significant to the audit objectives and consider whether specific internal
control procedures have been properly designed and placed in operation. We examined
management and internal controls as they related to our objectives. Chapter 2 identifies findings
and recommendations which may assist ORD in making better use of its resources that are
devoted to performance measurement.

Sources for Establishing Performance Measurement Criteria

   1. Evaluating Research Efficiency in the U.S. Environmental Protection Agency.
   Committee on Evaluating the Efficiency of Research and Development Programs at the U.S.
   Environmental Protection Agency, National Research Council of the National Academies.
   2008.



                                               26

                                                                               10-P-0176



2. 	Government Performance and Results Act of 1993 (GPRA).

3. Measuring Performance at the Army Research Laboratory: The Performance Evaluation
Construct. Brown, Edward A., U.S. Army Research Laboratory's Special Projects Office,
Army Research Laboratory Journal of Technology Transfer, Vol. 22 (2): 21-26 (June 1997).

4. OMB’s Program Assessment Rating Tool Guidance No. 2008-01 (Guidance). U.S. Office
of Management and Budget. January 29, 2008.

5. 	Performance Measurement Criteria Checklist. Washington County, Oregon.

6. Serving the American Public: Best Practices in Performance Measurement.
Benchmarking Study Report. The National Performance Review. June 1997.

7. The Performance-Based Management Handbook: A Six-Volume Compilation of
Techniques and Tools for Implementing the Government Performance Results Act of 1993
(GPRA), Volume 2, Establishing an Integrated Performance Measurement System. Prepared
by the Performance-Based Management Special Interest Group (PBM SIG) on a contract by
the U.S. Department of Energy. September 2001.

   Included in the PBM SIG handbook:
        Auditor General of Canada table for assessing the adequacy of performance
          measures
        PBM SIG’s Quality Check
        PBM SIG’s Three Criteria Check
        University of California SMART test
        U.S. Treasury Department criteria checklist

8. 	Various EPA Office of Inspector General reports including:

           EPA Performance Measures Do Not Effectively Track Compliance Outcomes,
           Report No. 2006-P-00006, December 15, 2005.

           Measuring the Impact of the Food Quality Protection Act: Challenges and
           Opportunities, Report No. 2006-P-00028, August 1, 2006.

           Performance Track Could Improve Program Design and Management to Ensure
           Value, Report No. 2007-P-00013, March 29, 2007.

           Using the Program Assessment Rating Tool as a Management Control Process,
           Report No. 2007-P-00033, September 12, 2007.

           Total Maximum Daily Load Program Needs Better Data and Measures to
           Demonstrate Environmental Results, Report No. 2007-P-00036, September 19,
           2007.




                                           27

                                                                                  10-P-0176



          Voluntary Programs Could Benefit from Internal Policy Controls and a
          Systematic Management Approach, Report No. 2007-P-00041, September 25,
          2007.

          Strategic Agricultural Initiative Needs Revisions to Demonstrate Results, Report
          No. 2007-P-00040, September 26, 2007.

          Border 2012 Program Needs to Improve Program Management to Ensure
          Results, Report No. 08-P-0245, September 3, 2008.

          Measuring and Reporting Performance Results for the Pollution Prevention
          Program Need Improvement, Report No. 09-P-0088, January 28, 2009.

          EPA Needs a Comprehensive Research Plan and Policies to Fulfill its Emerging
          Climate Change Role, Report No. 09-P-0089, February 2, 2009.

9. U.S. Government Accountability Office report:

Measuring Performance: Strengths and Limitations of Research Indicators, United States
General Accounting Office, GAO/RCED-97-91. March, 1997.




                                          28

                                                                                                        10-P-0176



                                                                                                   Appendix B

        Criteria for Evaluating Performance Measures26
     1) Well-Defined

             a.	 Is the measure clear, focused, and unambiguous to avoid misinterpretation?
             b.	 Is it clearly defined how the measure is relevant to the program?
             c.	 Is the information conveyed by the measure unique, or does it duplicate
                 information provided by another measure?
             d.	 Can changes in the value of the measure be clearly interpreted as desirable or
                 undesirable?
             e.	 Are data sources and specific requirements identified for the measure?
             f.	 Are any computations for the measure clearly specified?
             g.	 Are assumptions and definitions specified for what constitutes satisfactory
                 performance?
             h.	 Does the measure include a clear statement of the end results expected?

     2) Measurable, Quantifiable, and Comparable

             a.	 Is the measure objectively measurable, and based on observable information?
             b.	 Can the measure be quantified and compared to other data?
             c.	 Does the measure allow for comparison over time, or with other organizations,
                 activities, or standards?
             d.	 Is the measure able to be compared to existing and past measures (i.e., is the
                 measure able to show trends and define variation in performance?)?

     3) Feasible

             a.	 Does the measure fit into the organization’s resource constraints (i.e., budget,
                 expertise, computer capability, etc.)?
             b.	 Is the measure cost-effective?27
             c.	 Are there privacy or confidentiality concerns that would prevent the use of the
                 data by concerned parties?
             d.	 Is the measure doable within the time frame given?
             e.	 Are the data timely enough for evaluating program performance?




26
    The criteria identified in this appendix were compiled by OIG and are based on information obtained from the
literature sources cited at the end of the appendix. The criteria were used to evaluate the appropriateness, or
effectiveness, of performance measures used by ORD's Land Research Program.
27
   The measure should be available or able to be obtained with reasonable cost and effort, and provide maximum
information per unit of effort. The cost of collecting data should not outweigh their value.


                                                        29

                                                                                   10-P-0176





4) Consideration of Stakeholder Requirements and Feedback

      a.	 Does the measure support customer requirements?
      b.	 Has the measure been mutually agreed upon by the organization and its
          customers?
      c.	 Are the interests and expectations of the customer reflected in the measure?

5) Meaningful to Internal Stakeholders (managers, staff, etc.)

      a.	 Does the measure identify gaps between current status and performance
          aspirations, thereby highlighting opportunities for improvement?
      b.	 Do the measures enable strategic planning, and drive actions required to achieve
          objectives and strategic goals?
      c.	 Can management actions influence the results of the measure (i.e., does the
          measure show where management can take action to change the program results,
          and drive improvement for the given metric?)?
      d.	 Does the measure focus on the effectiveness and/or efficiency of the system being
          measured?
      e.	 Is the measure perceived as valuable by the organization and the people involved
          with the metric?
      f.	 Does the measure clearly reflect changes in the program?
      g.	 Does the measure cover an appropriate portion of the program’s operations?
      h.	 Does the measure reflect the desired outcomes of the program?

6) Logical Design

      a.	 Does the measure include milestones and/or indicators to express qualitative
          criteria?
      b.	 Are there reliable benchmark data, standards, or alternative frames of reference
          for interpreting the measure?
      c.	 Is the measure clearly attributable to specific program activities?
      d.	 Have appropriate industry or other external standards been applied to the
          measure?
      e.	 For survey data, have the survey questions and survey methodology been
          prepared, or at least reviewed by, professionals with demonstrated survey research
          qualifications?

7) Functional

      a. Does the measure encourage the right kind of behavior (i.e., does the measure
          align behavior with the program’s strategy and organizational priorities?)?
      b.	 Is the measure vulnerable to producing unintended consequences?




                                          30

                                                                                         10-P-0176





   8) Reliable and Available Data

          a.	 Are data available, or can they be collected, for the measure?
          b.	 Can the data required for the measure be replicated (i.e., will repeated
              measurements yield consistent results?)?
          c.	 Are the data for the measure susceptible to biases, exaggerations, omissions, or
              errors that are likely to make the measure inaccurate or misleading?
          d.	 Are data samples for the measure large enough to yield reliable data within
              acceptable confidence limits?
          e.	 Is there a clear audit trail for the measure that would allow for tracing the measure
              back to the detailed data used to compile the measure?
          f.	 If the measure is not quantitative, is it reasonable to verify it through an audit or
              review by an expert panel?

   9) Connection with Program Goals and Objectives

          a.	 Is the measure clearly linked to the programs goals and objectives?
          b.	 Does the measure provide a clear understanding of progress toward objectives and
              strategic goals (i.e., an indication of current status, rate of improvement, and
              probability of achieving the objectives and goals)?

Sources for Criteria Identified Above

   1)	 Developing and Presenting Performance Measures for Research Programs. Research
       Roundtable, August 1, 1995.

   2) EPA Office of Inspector General (various reports).

   3)	 Evaluating Research Efficiency in the U.S. Environmental Protection Agency.
       Committee on Evaluating the Efficiency of Research and Development Programs at the
       U.S. Environmental Protection Agency, National Research Council of the National
       Academies, 2008.

   4)	 Government Performance and Results Act of 1993 (GPRA).

   5)	 Measuring Performance at the Army Research Laboratory: The Performance Evaluation
       Construct. Brown, Edward A., U.S. Army Research Laboratory's Special Projects
       Office, Army Research Laboratory Journal of Technology Transfer, Vol. 22 (2): 21-26
       (June 1997).

   6)	 OMB’s Program Assessment Rating Tool Guidance No. 2008-1 (Guidance). U.S. Office
       of Management and Budget, January 29, 2008.

   7)	 Performance Measurement Criteria Checklist. Washington County, Oregon.




                                               31

                                                                                 10-P-0176



8)	 Serving the American Public: Best Practices in Performance Measurement.
    Benchmarking Study Report. The National Performance Review, June 1997.

9) The Performance-Based Management Handbook: A Six-Volume Compilation of
   Techniques and Tools for Implementing the Government Performance Results Act of
   1993 (GPRA), Volume 2, Establishing an Integrated Performance Measurement System.
   Prepared by the Performance-Based Management Special Interest Group (PBM SIG) on a
   contract by the U.S. Department of Energy, September 2001.

   Included in the PBM SIG handbook:

          Auditor General of Canada table for assessing the adequacy of performance
           measures
          PBM SIG’s Quality Check
          PBM SIG’s Three Criteria Check
          University of California SMART test
          U.S. Treasury Department criteria checklist

10) U.S. Government Accountability Office (various reports).




                                          32

                                                                                                                                 10-P-0176



                                                                                                                           Appendix C


              Linking Summary Assessment Charge Questions to
                      LTG Qualitative Ratings Definitions

Exceptional: indicates that the program is meeting all and              Exceeds Expectations: indicates that the program is meeting all
exceeding some of its goals, both in the quality of the science being   of its goals. It addresses the appropriate scientific questions to
produced and the speed at which research result tools and               meet its goals and the science is competent or better. It exceeds
methods are being produced. An exceptional rating also indicates        expectations for either the high quality of the science or for the
that the program is addressing the right questions to achieve its       speed at which work products are being produced and
goals. The review should be specific as to which aspects of the         milestones met.
program’s performance have been exceptional.

                                    “An exceptional rating also                                           “It addresses the appropriate
Summary Assessment Charge           indicates that the program is       Summary Assessment Charge         scientific questions to meet its
       Question 1                   addressing the right questions             Question 1                 goals…”
                                    to achieve its goals.”
                                    “…meeting all and exceeding                                           “…the science is competent or
Summary Assessment Charge           some of its goals, both in the      Summary Assessment Charge         better. It exceeds
       Question 2                   quality of the science being               Question 2                 expectations for either the high
                                    produced…”                                                            quality of the science …”

Summary Assessment Charge                                               Summary Assessment Charge
                                    Not addressed by definition                                           Not addressed by definition
       Question 3                                                              Question 3


Meets Expectations: indicates that the program is meeting most of       Not Satisfactory: indicates that the program is failing to meet a
its goals. Programs meet expectations in terms of addressing the        substantial fraction of its goals, or if meeting them, that the
appropriate scientific questions to meet their goals, and work          achievement of milestones is significantly delayed, or that the
products are being produced and milestones are being reached in a       questions being addressed are inappropriate or insufficient to
timely manner. The quality of the science being done is competent       meet the intended purpose. Questionable science is also a
or better.                                                              reason for rating a program as unsatisfactory for a particular
                                                                        long-term goal. The review should be specific as to which
                                                                        aspects of a program’s performance have been inadequate.

                                    “Programs meet expectations in                                        “…the questions being
Summary Assessment Charge           terms of addressing the             Summary Assessment Charge         addressed are inappropriate or
       Question 1                   appropriate scientific questions           Question 1                 insufficient to meet the
                                    to meet their goals …”                                                intended purpose.”
                                                                                                          “Questionable science is also
                                    “The quality of the science         Summary Assessment Charge         a reason for rating a program
Summary Assessment Charge
                                    being done is competent or                 Question 2                 as unsatisfactory for a
       Question 2
                                    better.”                                                              particular long-term goal.”

Summary Assessment Charge                                               Summary Assessment Charge
                                    Not addressed by definition                                           Not addressed by definition
       Question 3                                                              Question 3


Source: OIG analysis of ORD guidance




                                                                         33

                                                                                            10-P-0176



                                                                                        Appendix D
                   Agency Response to Draft Report
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460
                                                                                    OFFICE OF
                                                                              RESEARCH AND DEVELOPMENT


                                         JUNE 1 7 2010
MEMORANDUM

SUBJECT:       Office of Research and Development’s (ORD) Response to OIG Draft Report
               EPA's Office of Research and Development Performance Measures Need Improvement,
               Assignment No. FY2009-0891

FROM:          Paul T. Anastas /s/
               Assistant Administrator

TO:            Wade T. Najjum
               Assistant Inspector General for Program Evaluations

         Thank you for the opportunity to comment on the Office of Inspector General (OIG) draft audit
report, EPA's Office of Research and Development Performance Measures Need Improvement
(Assignment No. FY2009-0891), dated May 11, 2010, which focused on ORD’s Land Research Program
(LRP). The recommendations provided in the draft audit report will help ORD continue to improve its
performance measures.

        As the scientific research and assessment arm of EPA, ORD recognizes the complexity
of assessing research performance and your efforts to integrate an understanding of that
complexity into this report. Our commitment to ensuring that our science is of the highest
quality and our programs are managed effectively and efficiently means we are continually
searching for new and improved methods by which to measure the performance of our research
programs.

       ORD has identified areas in the draft report that we would like to clarify:

       1. 	 We recognize that the LRP's measures can be improved. However, until the Office of
            Management and Budget (OMB) provides new performance guidance, ORD continues
            to report on its measures developed during the Program Assessment Rating Tool (PART)
            process.

                       See Appendix E, Note 1 for OIG Response.




                                                  34

                                                                                       10-P-0176



       2. 	 We agree that the Survey of LRP clients did not provide a meaningful measure of
            customer feedback. However, it should be noted that the LRP survey was the first
            survey of its kind, and the results of the process were used to develop ORD guidance
            for subsequent surveys.

                     See Appendix E, Note 2 for OIG Response.

       3. 	 ORD's matrix management structure is noted several times for having a negative
            impact upon developing performance measures. The matrix management structure
            has, in fact, assisted ORD in managing the complex nature of research being
            conducted in numerous laboratories and centers across the country.

                     See Appendix E, Note 3 for OIG Response.

       The OIG provides seven recommendations to strengthen ORD's LRP program. In
general, we agree with the recommendations, and I am pleased that ORD is actively
incorporating these recommendations into the LRP program and, where appropriate, activities
relevant to all Board of Scientific Counselors research program reviews. However, for
recommendations that are closely linked to the OMB PART, we are awaiting additional guidance
from OMB before proposing specific corrective actions.

                     See Appendix E, Notes 4 -10 for OIG
                     Responses to ORD’s Proposed Actions.

        Attached please find a summary table of ORD's corrective actions and associated
projected completion dates. If you have any questions, please contact Deborah Heckman at
(202) 564-7274.

Attachment

cc: 	 Lek Kadeli
      Kevin Teichman
      Amy Battaglia
      Desmond Mayes
      Deborah Heckman
      Randall Wentsel
      Greg Susanke
      Alvin Edwards




                                               35

                                                                                                             10-P-0176


                                  ORD Corrective Actions and Projected Completion Dates

Rec                                             Lead                                                  Planned Completion
        OIG Recommendation
No.                                         Responsibility           ORD Corrective Action            Date
2-1   Develop one or more measures             Assistant     ORD will develop procedures, which
      linked to the short-term              Administrator    the LRP National Program Director        January 2011
      outcomes identified in the LRP         for Research    (NPD) and laboratory line management
      MYP.                                        and        will follow, to produce one or more
                                             Development     measures linked to short-term
                                                             outcomes.
                                                             ________________________________         ___________
                                                             In addition, ORD will publish a report   September 2010
                                                             on recent outcomes of the LRP.
2-2   Augment the LRP’s citation              Assistant      ORD will develop measures that are       Pending
      analysis measures (PART               Administrator    meaningful to ORD’s program              OMB performance
      Measures 1 and 2) with                for Research     managers, pending OMB guidance.          guidance
      measures that are meaningful to            and
      ORD program managers, and             Development
      that are linked specifically to the
      LRP’s goals and objectives.
2-3   Develop an implementation plan          Assistant      ORD will develop a plan for obtaining    February 2011
      for the LRP client survey to:         Administrator    LRP partner feedback.
      ¾ Identify the universe of LRP        for Research
           clients,                              and
      ¾ Randomly select an                  Development
           appropriate target
           population,
      ¾ Conduct a representative
          survey of LRP clients, and
      ¾ Obtain a statistically valid
          response rate; or
      If ORD decides not to use the
      client survey tool, then ORD
      should develop a reliable
      alternative mechanism for
      collecting customer feedback
      along with an implantation plan
      for the alternative mechanism.




                                                             36 

                                                                                                             10-P-0176 





2-4   Provide Board of Scientific            Assistant     ORD will provide the BOSC with the        As appropriate for
      Counselors (BOSC) with the           Administrator   requested information listed to inform    each new Research
      following performance                for Research    future BOSC Research Program              Program Review
      measurement data prior to full            and        Reviews.
      program reviews: (1) the results     Development
      of the most recent client survey
      (or its alternative mechanism for
      collecting client feedback), (2)
      data sufficient to assess LRP’s
      progress towards achieving
      program goals and outcomes,
      and (3) other data needed to
      support each of BOSC’s peer
      review charge questions.
2-5   Require that BOSC program              Assistant     ORD will revise the BOSC Program          June 2011
      review reports include an            Administrator   Review Report Guidance document to
      explicit discussion of the           for Research    include this recommendation.
      reliability and suitability of the        and
      performance data that ORD            Development
      provided to BOSC for each
      charge question and factor
      considered.
2-6   Revise ORD’s guidance to               Assistant     ORD is waiting for OMB direction          Pending
      BOSC for LTG ratings to ensure       Administrator   before revising or eliminating the        OMB performance
      that all aspects of the summary      for Research    BOSC rating measures. If ORD              guidance
      assessment charge questions are           and        continues rating Long-Term Goals
      clearly linked to the qualitative    Development     (LTG), this recommendation will be
      ratings definitions.                                 addressed.
                                                           ORD finds BOSC responses to the
                                                           charge questions and their
                                                           recommendations to be very beneficial
                                                           in improving research program
                                                           performance. However, the BOSC’s
                                                           ratings are not as useful in improving
                                                           program performance.
                                                           Progress ratings for each LTG (i.e.,
                                                           exceptional, exceeds expectations,
                                                           meets expectations, not satisfied) were
                                                           developed to satisfy OMB PART
                                                           requirements. Furthermore, the BOSC
                                                           spends a considerable amount of time
                                                           deliberating over the LTG ratings.
                                                           ORD prefers that the BOSC spend its
                                                           time on addressing the charge questions
                                                           and providing ORD with
                                                           recommendations for improving its
                                                           research programs. Pending OMB
                                                           drivers will inform ORD guidance with
                                                           respect to the ratings.



                                                           37

                                                                                                          10-P-0176 



2-7   Supplement the current general         Assistant     ORD will wait for OMB direction          Pending
      LTG ratings definitions with         Administrator   before revising or eliminating the       OMB performance
      program-specific milestones,         for Research    BOSC rating measures. If ORD             guidance
      and benchmarks for success,               and        continues rating LTGs, this
      that are linked to elements in the   Development     recommendation will be addressed. See
      LTG ratings definitions.                             ORD’s response to 2-6 for explanation.




                                                           38

                                                                                   10-P-0176


                                                                               Appendix E

             OIG Evaluation of Agency Response
Note 1 -	   We stated on pages 8 and 14 that ORD is waiting on guidance from OMB before
            changing its PART measures. However, we believe that ORD should augment
            the current measures with additional measures before guidance from OMB is
            issued. After new OMB guidance is issued, then ORD should propose these new
            measures to replace the current PART measures, if appropriate, considering the
            new guidance.

Note 2 -	   We added the following sentence in Chapter 2 under the heading ORD’s Survey of
            LRP Clients Did Not Provide a Meaningful Measure of Customer Feedback:
            “According to ORD, the LRP survey was the first survey of its kind, and results
            of the process were used to develop ORD guidance for subsequent surveys.”

Note 3 -	   In its response to our draft report, ORD stated that ORD’s matrix management
            structure is noted several times for having a negative impact on developing
            performance measures. According to ORD, the matrix management structure has
            assisted ORD in managing the complex nature of research being conducted in
            numerous laboratories and centers across the country. However, while the matrix
            management structure may assist in managing some aspects of research, our
            report focused only on the effectiveness of performance measures for the LRP at
            the time of our review. We found that the effectiveness of the LRP’s performance
            measures was impacted by the management structure employed at ORD.

Note 4 -	   We appreciate ORD’s commitment to publish a report on outcomes of the LRP by
            September 2010, and to develop procedures for producing measures linked to
            short-term outcomes. However, it was not clear from the response whether ORD
            intended to issue guidance by January 2011, or develop new performance
            measures by that date. Subsequent to ORD’s response to the draft report, we
            requested and received written clarification on July 19, 2010, that ORD will
            develop short-term outcome measures for LRP by January 2011. With this
            clarification, we accept ORD’s planned actions and the timeline for completion of
            Recommendation 2-1.

Note 5 -	   Regarding Recommendation 2-2, we continue to believe that ORD should
            augment its current PART measures with additional measures that are meaningful
            to ORD program managers, and that are linked specifically to the LRP’s goals and
            objectives. ORD can still report on the existing PART measures, as well as the
            new measures it develops. This interim approach would allow ORD to field test
            the new measures and demonstrate the benefits of such measures as potential
            future measures before guidance from OMB is issued.

Note 6 -	   We accept ORD’s planned actions and the timeline for completing
            Recommendation 2-3.



                                            39

                                                                                      10-P-0176


Note 7 -	    We accept ORD’s planned actions to provide BOSC with the information listed
             (results of the most recent client survey or alternative; data on LRP’s progress in
             achieving program goals and outcomes; data to support each peer review charge
             question) as appropriate for each new research program review. However, the
             intent of our recommendation was that the information would be provided to
             BOSC prior to its program reviews. Subsequent to ORD’s response to the draft
             report, we requested and received written clarification on July 19, 2010, that ORD
             will provide the information to BOSC prior to its program reviews. With this
             clarification, we accept ORD’s planned actions and the timeline for completion of
             Recommendation 2-4.

Note 8 -	    We accept ORD’s planned actions and the timeline for completing
             Recommendation 2-5.

Note 9 -	    Regarding Recommendation 2-6, our recommendation is to improve the guidance
             to BOSC, not to revise or eliminate the LTG ratings. As long as ORD continues
             to have these LTG ratings, we continue to believe that ORD should ensure that all
             aspects of the summary assessment charge questions are clearly linked to the
             qualitative ratings definitions.

Note 10 -	   Regarding Recommendation 2-7, our recommendation is to supplement the
             guidance to BOSC with performance information that better enables BOSC to
             assign LTG ratings, not to revise or eliminate the LTG ratings. As long as ORD
             continues to have these LTG ratings, we continue to believe that ORD should
             supplement the current general LTG ratings definitions with program-specific
             milestones, and benchmarks for success, that are linked to elements in the LTG
             ratings definitions.




                                             40

                                                                                    10-P-0176


                                                                             Appendix F

                                   Distribution
Office of the Administrator
Assistant Administrator for Research and Development
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Deputy Assistant Administrator for Management, Office of Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Research and Development
Inspector General




                                            41

